<html>
<title> - OFFSHORE DRILLING IN CUBA AND THE BAHAMAS: THE U.S. COAST GUARD'S OIL SPILL READINESS AND RESPONSE PLANNING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                   OFFSHORE DRILLING IN CUBA AND THE
                  BAHAMAS: THE U.S. COAST GUARD'S OIL
                 SPILL READINESS AND RESPONSE PLANNING

=======================================================================

                                (112-70)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
  72-582 PDF              WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Baumgartner, Rear Admiral William, Commander, Seventh District, 
  United States Coast Guard......................................    10
Carroll, Hon. Jennifer, Lieutenant Governor, State of Florida....    10
Herbst, Lars, Regional Director, Gulf of Mexico Region, Bureau of 
  Safety and Environmental Enforcement, U.S. Department of the 
  Interior.......................................................    10
Payton, Debbie, Chief, Emergency Response Division, Office of 
  Response and Restoration, National Ocean Service, National 
  Oceanic and Atmospheric Administration.........................    10
Proni, John R., Ph.D., Executive Director, Florida International 
  University Applied Research Center (ARC).......................    10
Thomas, Rear Admiral Cari, Director of Response Policy, United 
  States Coast Guard.............................................    10

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Baumgartner, Rear Admiral William, and Thomas, Rear Admiral Cari, 
  joint statement................................................    39
Carroll, Hon. Jennifer...........................................    44
Herbst, Lars.....................................................    47
Payton, Debbie...................................................    51
Proni, John R., Ph.D.............................................    56

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
                   OFFSHORE DRILLING IN CUBA AND THE
                  BAHAMAS: THE U.S. COAST GUARD'S OIL
                 SPILL READINESS AND RESPONSE PLANNING

                              ----------                              


                        MONDAY, JANUARY 30, 2012

                   House of Representatives
Committee on the Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
The Atlantic Room, Double Tree by Hilton Ocean Point Resort and 
Spa, 17375 Collins Avenue, Sunny Isles Beach, Florida, Hon. 
John Mica (Chairman of the committee) presiding.
    Present: Representatives Mica, Hultgren, Long, and Gibbs.
    Also Present: Representatives Ros-Lehtinen, Diaz-Balart, 
Rivera, and West.
    Mr. Mica. Good morning. I would like to call this hearing 
of the United States House of Representatives Transportation 
and Infrastructure Committee, and the Subcommittee on the 
United States Coast Guard hearing to order.
    I am pleased to be here in South Florida, and first want to 
welcome my colleagues who have come from across the country to 
be with us today, and I will introduce them in just a second.
    The order of business today is we will be conducting a 
hearing that will focus on Cuban and Bahamanian oil drilling 
off of Florida shores.
    The order of business will be opening statements by Members 
of Congress, then we will turn to the distinguished panel who 
has been assembled to assist our subcommittee. And we will then 
move to questions after we have heard from all the witnesses.
    I want to particularly welcome members of the committee 
that have traveled from colder climates to be with us, it is a 
very intense time in Washington and I know in their districts 
right now. But I am very pleased that they have joined us. I 
will introduce them: Randy Hultgren, and Randy is from the 14th 
District of Illinois. That is east of Chicago. Pleased to have 
him in this subcommittee hearing today. And Billy Long next to 
him, the Seventh District of Missouri, and southwestern 
Missouri, Springfield, and some of that area. Bob Gibbs, Bob is 
also the chair of the Water Resources Subcommittee in the House 
of Representatives, and he is the 18th District of Ohio, 
central Ohio.
    Then we are very pleased with the response we have had from 
Members of South Florida to attend and also participate in this 
hearing today. A senior Member from South Florida is Ileana 
Ros-Lehtinen, and, of course, she chairs the Foreign Affairs 
International Relations Committee in the U.S. House of 
Representatives. And she also is the representative from the 
Florida Keys, and of course the Miami area.
    Mario Diaz-Balart, a former and distinguished member of 
this committee, and represents us well on the Appropriations 
Committee. And he has the 21st District, which is, again, part 
of South Florida. David Rivera, and David has western Miami. He 
is one of the newer Members, but he also has Homestead and the 
Everglades. And then, Allen West, pleased that he could join 
us. He has the area from Fort Lauderdale to Jupiter, another 
area that may be impacted by the subject of this hearing.
    So, I am pleased that we have this excellent turnout of 
Members both from the committee and also from South Florida 
join us today.
    I will introduce the panel of witnesses and recognize them, 
and we will proceed from there.
    So, that being the preliminary introductions, we turn now 
to opening statements. And I will yield myself time, and we 
will go to other Members in the order in which I announced.
    First, I would like to ask unanimous consent that all of 
the Florida Members who are attending today that are not a 
member of this panel have ability to participate both to open 
with their opening statements, and also to ask questions.
    Without objection, so ordered.
    And they will be recognized in order after we hear from the 
members of our subcommittee and committee.
    So, with that, let me just say, the reason we are holding 
this hearing is that we have all heard about Cuba and the 
Bahamas opening their shores to offshore and maritime drilling 
off of Florida's coast. As a committee, people wonder what the 
Transportation Committee is doing on this subject, and just for 
purpose of explanation, one of our six subcommittees is the 
United States Coast Guard Subcommittee. And our committee 
historically, traditionally has overseen the United States 
Coast Guard, and we have legislative jurisdiction.
    We have also conducted hearings on the Coast Guard and oil 
spills that we had in the Gulf, and we also have responsibility 
for dealing with legislation pertaining to those matters, and 
the Coast Guard, as you may know, too, is our first response 
agency, and it is important that we find out where we are in 
this whole process.
    So today, it is my hope that we can actually hear, and I 
have heard bits and pieces and read the beginning of some 
reports. I was quite startled last week. Folks must understand 
our committee has pretty broad jurisdiction. We are trying to 
get out this week an FAA bill and a transportation bill. We 
have just finished a major pipeline bill, a safety bill, 
reauthorization. But sometimes at the end, you do not get all 
of the information, so you conduct a hearing.
    But I was quite surprised to learn that, in fact, that the 
exploratory rigs and drilling platforms were moved into place, 
and as staff informed me last week that Cuba, in fact, may have 
already started drilling or will begin drilling. So, that was 
kind of startling to find out this is not something coming; 
this is something that is actually taking place.
    I was further surprised to learn that this platform is some 
56 miles from Key West, this first platform, and another 
platform is on its way. And, again, we will find out the 
details. This is some of the information that I was provided 
with.
    And so, that was kind of a surprise, and I think the most 
important thing is we find out how we are prepared for this. We 
have a very unique diplomatic and international strained 
relationship with Cuba. The Bahamas has been fairly 
cooperative, and we will hear more about what they are doing 
with their plans for offshore drilling.
    The other thing that we will hear is we have some experts 
that can tell us on the conditions. And this area, I believe it 
is the Florida Straits, where we have very strong currents, 
which do feed into the Gulf Stream, and the Gulf Stream is just 
maybe 20 miles or so off this coast. So, this is not the same 
as the situation we found ourselves in with the Gulf where 
currents did not move quite as fast, and the impact might not 
be as great. So, that was somewhat surprising.
    The other fact that I have learned is, and we will get this 
confirmed, is the fact that, again, the purpose of this hearing 
is to find the facts. But I understand these are deep water 
exploratory drilling activities at 6,000 feet, which is greater 
than what we saw with the Deepwater Horizon disaster in the 
Gulf. Again, that concerns me, and I would like to hear more 
about that.
    Finally, we wanted to hold this hearing, and we probably 
could have done it in the city hall or maybe another facility 
here. But I thought it was important to hold the hearing with 
the beach and the ocean that is such an important treasure to 
Florida. Tourism accounts for at least a third of our economy. 
It is so important and essential not only historically, but for 
the future, so we can be dramatically impacted. I do not want 
folks to say where was the committee when they started this, 
and where was the Coast Guard. Where was the United States when 
they began this drilling. And if something happens, we do need 
to be prepared, and there are many, many issues dealing with 
the situation that we find ourselves in today.
    So, with those comments, again, I want to thank our Members 
for joining us. I will yield now to Mr. Hultgren from Illinois 
and welcome your opening statement.
    Mr. Hultgren. Thank you, Mr. Chairman. It really is a 
privilege to be here. Thank you for hosting this committee, and 
I think this is a very important discussion for us to have, and 
I will be very brief because I want to get to the witnesses and 
get as much information as we possibly can during this hearing.
    I think this is so important. It is not only a treasure to 
Florida; it really is a treasure to our Nation. I come from 
Illinois, and we do not enjoy these kinds of treasures. I need 
to come here to enjoy that. But it really is very important for 
us, again, to see the impacts that this type of activity could 
have on such a wonderful resource that we have a Nation here. 
So, looking forward to gathering information.
    Again, Chairman, thank you for calling this committee 
hearing, and looking forward to learning very much this 
morning. I yield back.
    Mr. Mica. Thank you. I will yield to the gentleman from 
Missouri, Mr. Long.
    Mr. Long. Thank you, Chairman, and thank you all for being 
here today. I think this is vitally important. And the 
Chairman's right; we are not used to seeing breakers like this 
on the Potomac.
    [Laughter.]
    Mr. Long. So, it is a pretty good room to hold it in to see 
what kind of devastation and havoc that a spill has on this 
area.
    And I want to thank Congressman Rivera for his work on this 
and bringing it to everyone's attention. I thank Chairman Mica 
because he is always preempting versus responsive, which I 
think is extremely, extremely important in a situation like 
this. And he is one that wants to act instead of react, so that 
is why we are here today. And thank you for your attendance.
    Mr. Mica. Thank you, and the gentleman from Ohio, Mr. 
Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman. It is a privilege to be 
here. It is great to see the great turnout. Obviously it shows 
the interest and the concern. And as the chairman said, the 
Water Resources Environment Subcommittee had a joint hearing 
with the Coast Guard last year. We brought Coast Guard 
officials in to hear from their side what was happening and 
what they were doing in their analysis and their study, and I 
think we should be getting another update on that.
    But I think, as the chairman said, it is interesting when 
you look at Deepwater Horizon, what is happening not too far 
from here in the Cuban waters is actually deeper drilling and 
central for greater devastation.
    So, I think I want to hear from the witnesses to hear your 
thoughts on what we are doing and what we can do to improve if 
there is a spill or a problem, the best way to address that, 
especially when we are working with a foreign country that we 
do not have the kind of relationship we need.
    So anyways, glad to be here, and I yield back.
    Mr. Mica. Thank you, and let me recognize now Chairman Ros-
Lehtinen, welcome her to our committee.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Mica. Thank 
you for the Members for giving us, the South Florida 
congressional delegation, some of us the opportunity to testify 
at this very important hearing.
    The Chinese oil rig Scarabeo 9 reached Cuban waters earlier 
this month, as we all know, and reports indicate that the 
Spanish company Repsol and the Cuban regime have already 
commenced their preparations; they are drilling for oil.
    Instead of the Obama administration attempting to prevent 
oil drilling from occurring so close to our shores, President 
Obama's administration have held Repsol's hand every step of 
the way along Cuba's coast. Some critics have argued 
erroneously that we should ease sanctions against Cuba in order 
to protect ourselves from an oil spill. This is merely a 
backdoor attempt to ease sanctions on the Cuban regime, a State 
Sponsor of Terrorism, because the Departments of Commerce and 
Treasury have already granted licenses to U.S. companies in the 
event that we are threatened by an oil spill from Cuba. And 
further license agreements would not prove beneficial to U.S. 
foreign policy.
    But the concerns go well beyond Repsol. Reports indicate 
that Malaysia's company, Petronas, in cooperation with Russia's 
State-owned Gazprom, will be the next lease holder to drill for 
oil in Cuban waters. These are the same companies that helped 
the Iranian regime develop its energy sector, and by doing so, 
gave Iran the financial resources to pursue its nuclear weapons 
program.
    These companies do not care about U.S. security concerns, 
nor our immediate environmental safety. The media, of course, 
has stated that the oil drilling in Cuba would take place just 
perhaps 50 miles off the Florida Keys or Florida Straits, an 
area that I am so proud to represent. This is three times as 
close as operations located in U.S. waters are permitted to 
drill. An oil spill off the coast of Cuba would take mere days 
to reach the fragile shores of Florida.
    We cannot prevent Repsol from drilling now, but we can 
apply pressure to these companies and these countries that seek 
to drill next.
    I urge my congressional colleagues to push the Obama 
administration to act in order to prevent new potential 
leaseholders from moving forward so that we can prevent the 
Castro brothers from becoming the oil tycoons of the Caribbean. 
We can deter companies like Petronas, like PDVSA, like Gazprom 
from exploratory drilling in Cuban waters through tools that 
are already available to us, as well as implement new measures 
in order to guarantee that entities think twice before entering 
into agreements with a U.S. State Sponsor of Terrorism.
    My colleagues and I have introduced legislation that takes 
further steps in order to deter companies and individuals from 
entering into oil agreements with the Castro regime, as well as 
prevent an oil spill just miles from our beautiful coral reefs.
    I have authored the Caribbean Coral Reef Protection Act, 
legislation that would sanction companies and individuals who 
aid the Castro brothers in their oil drilling activities. My 
colleague from South Florida, Congressman David Rivera, has 
introduced the Foreign Oil Spill Liability Act in order to 
apply liabilities and penalties faced by foreign entities if an 
oil spill were to reach U.S. shores. In addition, Mr. Rivera's 
legislation would seek to triple the liabilities cap for spills 
that originate from a State Sponsor of Terrorism.
    Mr. Chairman, Mr. Rivera's bill has been referred 
exclusively to your committee, so I hope that you and your 
colleagues consider this legislation as soon as possible.
    Also, passage of the bipartisan Caribbean Coral Reef 
Protection Act and the Foreign Oil Liabilities Act would 
discourage individuals, discourage companies, and countries 
from engaging with the Castro brothers in their dangerous oil 
drilling scheme because it would enforce sanctions and apply 
liability caps. These pieces of legislation ensure that if an 
oil spill reached U.S. shores, the American people and American 
businesses would be properly compensated.
    An oil spill off the coast of Cuba would wreak havoc not 
only on our environment, but also, as you pointed out, Mr. 
Chairman, on the tourism industry in Florida, impacting our 
economy through this difficult downturn in our State.
    The United States cannot stand idly by as the Castro 
brothers enter into these oil drilling agreements with 
companies like the Russian-owned Gazprom, or the Venezuelan-
owned PDVSA, which has already been sanctioned by the U.S. due 
its dealings with the Iranian regime.
    President Obama has failed miserably to use any and all 
means available to prevent Repsol from drilling, and now we 
must deal with the results of this administration's dangerous 
complacency.
    Thank you, Mr. Chairman, for this opportunity.
    Mr. Mica. Thank the gentlelady. I would recognize now a 
former member of the panel, Mr. Diaz-Balart. Welcome.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Always a 
privilege to be with you, sir. I want to thank also the members 
of the committee for bringing attention, you, Mr. Chairman, the 
members, to this very important matter.
    I also want to thank the Lieutenant Governor, the Federal 
Government agencies that are here, the Coast Guard, NOAA, the 
Department of Interior, and FIU with Dr. Proni, for testifying 
here this morning.
    Cuba, as the chairman of the International Relations 
Committee has mentioned, is a U.S. designated State Sponsor of 
Terrorism, which is directly responsible for acts of 
international terrorism, harbors fugitives from U.S. law, 
actively partners with other terrorist States, such as Iran and 
Syria, and terrorist groups, such as Hezbollah and FARC, just 
to name a few.
    This is a regime that does not have transparency. It does 
not have any accountability. It does not have the ability to or 
the will frankly to either protect its people, its coastline, 
and much less the coastline of the United States of America.
    In Florida, Mr. Chairman, as you well know, we have 800 
miles of beautiful beaches you can see if you right outside the 
window. More than $2.5 trillion in insured coastal property, 
and a $60 billion tourism industry, all, all for which are as 
safe here.
    And, again, we are dealing with a regime that for decades, 
up to the 1980s, was actually asking for unilateral nuclear 
strikes against the United States. I do not think we should 
think that they are going to be too concerned about protecting 
all of that that I just mentioned.
    Despite this, the U.S. administration, our administration, 
appears to be providing assistance, guidance, and advice even 
to Repsol now to most quickly and efficiently channel dollars 
to the terrorism business partner of Repsol, the Cuban regime. 
So, while preparing for disaster is certainly important, 
prevention obviously, though, is better.
    When Secretary Salazar went to Spain and met with Repsol, 
he should have and he could have strongly dissuaded that 
Spanish company from any drilling in Cuban waters. He did not. 
He made no real attempt to stop it.
    So, even if this support may not technically violate the 
Trading with the Enemy Act, TRSA, the Cuban Democracy Act, and 
``Hub'' known as the Helms-Burton Act. The administration 
certainly is not acting consistently with the principles 
underlying those laws which are meant to prevent a terrorist 
regime that brutally oppresses its people and is a threat to 
our national security.
    Because we are dealing, Mr. Chairman, with a close 
terrorist State that has no transparency, no safeguards, and 
cannot be trusted, and since, I deeply fear, that the 
administration of President Obama is allowing for a potential 
disaster, I must once again really thank you, Mr. Chairman, and 
this committee for bringing out this issue, for talking about 
this issue, and for having this hearing.
    Thank you, Mr. Chairman. Thank you to our colleagues.
    Mr. Mica. Thank the gentleman. Let me recognize Mr. Rivera 
now.
    Mr. Rivera. Thank you very much, Mr. Chairman, for having 
this hearing. Thanks to all of the committee members that have 
traveled to come down to South Florida, even though, as we can 
see from the scene around us, it is not such a bad place to 
have a hearing.
    I also want to thank the witnesses for taking the time to 
come here today, particularly my former colleague in the House 
of Representatives, Lieutenant Governor Jennifer Carroll, who 
is doing such a wonderful job not only promoting Florida, but 
her presence here demonstrates how important it is for her and 
for Governor Rick Scott to protect Florida and protect 
Florida's natural resources and our economic interests.
    From many dangers that are posed by what is going on right 
now off the coast of Cuba, dangers that first and foremost 
would impact our region, the southern cone of Florida, as one 
of those maps so clearly demonstrates, the map all the way to 
the right. When you look at the loop current, you will see 
immediately who will be impacted if there is any accident off 
the coast of Florida. And that is, first and foremost, the 
Florida Keys and the entire South Florida region.
    And we need to make sure that those dangers that are 
represented by the activities off of Cuba are prevented to the 
greatest extent possible. Right now, we know there will be no 
protection whatsoever from the Castro dictatorship. The Castro 
brothers will certainly have no concern with respect to the 
environmental integrity of Florida or the United States. We 
know what their dismal environmental record is in Cuba, and we 
need to make sure that we hold all parties accountable.
    As has already been stated, the Obama administration has 
made no effort whatsoever to dissuade this activity. In fact, 
by not dissuading them, they have encouraged the Castro 
dictatorship to move forward.
    So, since we are not going to do anything with respect to 
the Castro dictatorship certainly in this administration, we 
need to make sure to ensure that all the parties that are 
collaborating with the regime are also held responsible and 
understand that they will be liable as well.
    Chairman Ros-Lehtinen mentioned earlier my legislation, the 
FOSL bill, which I think makes the point that legislation is 
needed to increase sanctions on collaborators of the regime, as 
well as the regime itself.
    We know that the Oil Pollution Act of 1990 ensured that if 
there is a rig disaster in American waters, the responsible 
party must pay for all cleanup costs, and to reimburse the Oil 
Liability Trust Fund up to $1 billion to pay out claims. 
However, if that same accident happened off the coast of a 
foreign nation and the oil reached American waters and beaches, 
the Oil Liability Trust Fund would pay $150 million for cleanup 
and up to $850 million for claims.
    The Attorney General has existing authority to seek 
compensation for the fund from the responsible party, but the 
most they would have to pay is $1 billion. If the spill exceeds 
$1 billion, then the American taxpayer, or the affected States 
in this case, certainly the State of Florida, would have to pay 
the difference.
    So, my legislation, the Foreign Oil Spill Liability Act, 
will ensure the responsible foreign party pays for all cleanup 
costs by applying the Oil Pollution Act to them as well.
    Furthermore, the bill would also apply the Clean Water Act 
penalties on the responsible foreign party. So, therefore, if 
the rig was operated in the waters of a U.S. State Department 
designated State Sponsor of Terrorism, then the liabilities and 
penalties on the responsible party would be tripled.
    This is the only way I believe that we will be able to move 
this administration toward a more proactive policy of ensuring 
that State Sponsors of Terrorism, as Congressman Mario Diaz-
Balart so eloquently stated, and which Cuba is one of those 
listed on the official list of State Sponsors of Terrorism, as 
designated by our Government, make sure countries like those 
and their collaborators, their private sector collaborators 
from around the world, understand that they are going to be 
held responsible if anything happens to the coast of Florida as 
a result of their activities in working with a terrorist 
dictatorship like the Castro dictatorship, to promote their 
economic interests.
    So, not only do we need to make sure and make the public 
aware of the dangers represented by having the Castro 
dictatorship participate in this type of activity, but we need 
to make sure their collaborators are aware that we are going to 
hold them responsible as well for any activity or any 
participation they may have with that dictatorship.
    And with that, I yield back. Thank you again, Mr. Chairman.
    Mr. Mica. Thank the gentleman. We will now recognize and 
welcome Mr. West to be recognized.
    Mr. West. Thank you, Mr. Chairman. Can you hear me OK? Good 
morning, ladies and gentlemen. Thank you, Mr. Chairman, and 
other members of this panel from outside of the State of 
Florida for hosting today's important hearing down here in 
Florida. Also welcome to our Lieutenant Governor Carroll, dear 
friend of mine, Admiral Baumgartner, and the other members of 
this panel.
    I just want to say that I sit on two committees, the Armed 
Services Committee and also the Small Business Committee. And 
when I think about the fact that 2 weeks ago the President of 
Iran, Mahmoud Ahmadinejad, was visiting the nation of Cuba. So 
for me, this is an economic issue. It is an economic security 
issue, and it is also a national security issue. And I thank 
the chairman for bringing this issue here for us to understand.
    Let me first state that I strongly support all of the above 
energy approach that includes development of natural gas, clean 
coal, and American produced oil, as well as alternative energy 
sources, such as wind, solar, hydro power, nuclear, geothermal, 
and biomass.
    Offshore drilling is an important part of this type of 
comprehensive energy plan. However, it is critical that 
offshore oil and gas exploration be conducted in a safe and 
responsible manner, a balanced regulatory structure which does 
everything possible to avoid another disaster, while ensuring 
that this vital component of our energy portfolio can continue 
safely and will provide the best solution.
    The Obama administration is not only aware that Spain's 
State-owned energy company, Repsol, has entered into an 
agreement with the Cuban regime to drill off Cuba's coast, and 
that a Chinese built deep water oil rig will be used for this 
project. The Department of Interior has been actively providing 
assistance, guidance, and technical advice to Repsol. This is 
inconsistent with numerous U.S. foreign policy and national 
security objectives our country has with regards to Cuba.
    Let me perfectly clear. Offshore drilling by foreign 
companies in Cuba's territorial waters is incredibly dangerous 
to the State of Florida. And make no mistake, Cuba, through 
their Chinese allies, will find a way to engage in slant 
drilling that would tap oil from the intercontinental shelf. 
The assistance from the Department of Interior to Repsol will 
result in a financial windfall to the Cuban regime. You have 
heard other Members address this.
    And if this were not troubling alone, it may also 
facilitate processes that could lead to an environmental 
disaster off the Florida coast, with which the United States 
would have no jurisdiction.
    Tourism is the lifeblood of the economy in South Florida. A 
lot of small businesses depend upon that. Our beaches, cruise 
ports, two of which Congressional District 22 I have the 
privilege of representing, Port Everglades and the Port of Palm 
Beach. And waterways for what brings millions of tourists and 
boaters to this area every year. An environmental disaster on 
par with the Deepwater Horizon accident, but this time by a 
foreign company using Chinese made equipment operated within 
Cuban territory would be a disaster for our beaches and 
ecosystems that is located just 90 miles from mainland Cuba, 
and an absolute nightmare in terms of economic costs.
    If an accident occurred by foreign-owned Chinese made 
equipment operated within Cuban territory, who do you think 
would clean up the mess, China? Cuba? Or the United States 
Coast Guard? The bill payers will be you, the American 
taxpayer. And the victims? South Florida's beaches, its 
ecosystem, and tourism.
    The Oil Pollution Act quite simply does not have sufficient 
taxpayer protections for major spills that originate in foreign 
waters. And that is why I have joined with my colleague, and I 
co-sponsored and strongly support the Foreign Oil Spill 
Liability Act by Congressman Rivera, which requires the 
responsible party to pay for the cleaning up of their spill 
regardless of where it originates from, and holding them to the 
same civil liability consequences an American company would 
face in the event of a spill.
    Our coastal communities need peace of mind that if they are 
impacted by a foreign spill, resources are available to cover 
their losses. The American taxpayers should not have to foot 
the bill to bail out the irresponsible behavior of foreign 
companies.
    It goes without saying that the topic of this hearing is 
incredibly important, and the consequences of the 
administration's actions to date could be significant for our 
State as well as our local communities.
    I look forward to hearing from each one of you on your 
perspectives on this matter, and have high hopes that the 
decisionmakers within the Obama administration will take note 
of what is being said today.
    And with that, Mr. Chairman, I yield back my time.
    Mr. Mica. Thank you, Mr. West, and all of the Members for 
their opening comments.
    And without objection, we will leave the record open for 2 
additional weeks for additional submission by Members and for 
the record.
    We will turn now to the next order of business is to hear 
from our witnesses. And let me say at the outset, I am 
absolutely delighted that the Lieutenant Governor could join us 
today. I did not think that the Lieutenant Governor would be 
able to be with us. There is a slight thing happening in the 
background there.
    [Laughter.]
    Mr. Mica. There is also a little action going on in 
Tallahassee which happens to be our legislative session, in 
which as a former member, she is very actively involved and the 
key player. So, I cannot thank her enough to break away and 
come down here and address this issue. And it is an important 
issue to the State of Florida, but I am very pleased that you 
would join us today.
    I will recognize you first, and I know you have to return 
after you comment. But on behalf of our panel and a tough time 
in the State, we appreciate your being here, and you are 
recognized for comment.

TESTIMONY OF HON. JENNIFER CARROLL, LIEUTENANT GOVERNOR, STATE 
   OF FLORIDA; REAR ADMIRAL WILLIAM BAUMGARTNER, COMMANDER, 
SEVENTH DISTRICT, UNITED STATES COAST GUARD; REAR ADMIRAL CARI 
THOMAS, DIRECTOR OF RESPONSE POLICY, UNITED STATES COAST GUARD; 
 DEBBIE PAYTON, CHIEF, EMERGENCY RESPONSE DIVISION, OFFICE OF 
  RESPONSE AND RESTORATION, NATIONAL OCEAN SERVICE, NATIONAL 
 OCEANIC AND ATMOSPHERIC ADMINISTRATION; LARS HERBST, REGIONAL 
     DIRECTOR, GULF OF MEXICO REGION, BUREAU OF SAFETY AND 
ENVIRONMENTAL ENFORCEMENT, U.S. DEPARTMENT OF THE INTERIOR; AND 
JOHN R. PRONI, PH.D., EXECUTIVE DIRECTOR, FLORIDA INTERNATIONAL 
            UNIVERSITY APPLIED RESEARCH CENTER (ARC)

    Ms. Carroll. Thank you, Chairman Mica, and Members. 
Chairman Mica, you are definitely a visionary because a picture 
speaks volumes and a thousand words.
    Mr. Chairman and Members, thank you for the opportunity to 
speak to the committee today to outline the State of Florida's 
concerns and preparedness to respond to oil spills in light of 
the looming oil drilling off the coast of Cuba.
    The Communist government of Cuba and its leader, Raul 
Castro, according to the Department of State, continues to 
hamper private sector growth with tight restrictions on supply 
of goods and labor, high taxation that discourages hiring and 
profits, a ban on professional entrepreneurs, limited access to 
transportation and credit, a monopoly on importation, legal 
uncertainty, and lack of transparency, and a host of other 
disincentives and restrictions.
    With this track, Cuba cannot be trusted to provide even the 
bare essentials to its own citizens, and it certainly cannot be 
trusted to oversee safe and environmentally sound oil drilling 
only 90 miles off the pristine Florida coast.
    With these facts in mind, over the past year under the 
direction of Governor Rick Scott, the State of Florida has 
endeavored to be prepared for any drilling-related disaster 
that may impact Florida's shores.
    Florida's preparedness plan has three main aspects: 
emergency management, led by Bryan Koon, the director of 
Division of Emergency Management, economic, led by Gray Swoope, 
who is the Secretary of Commerce and president of Enterprise 
Florida, and environmental, led by Herschel Vinyard, secretary 
of Department of Environmental Protection.
    The Deepwater Horizon incident in 2010 has shown us that a 
spill that poses even a potential of impact on Florida's water 
or land causes a huge negative impact on the economy. Florida's 
two largest industries are agriculture, including aqua culture 
and fisheries, and tourism. These are real, or even perceived 
negative impacts on these industries, which may caused by a 
direct harm, or the appearance of harm, to the marine 
environment, reduces tourism by discouraging people from 
visiting Florida's beaches and attractions, and it sends 
economic shockwaves through the State.
    The panhandle of Florida is still recovering from the 
negative economic impacts resulting from the Deepwater Horizon 
spill. Florida's coastline was spared from a more severe oil 
spill impact because weather conditions directed most of the 
oil away from the State. However, many people throughout the 
State, as well as potential out-of-State and international 
visitors, canceled trips to Florida's vacation spots, fishing 
excursion, beach visits, because of the perception that our 
shoreline was not safe. News coverage of the spill contributed 
to canceled visits because it created the impression that spill 
effects were evident and widespread throughout the State.
    I would like to take this opportunity to remind the 
committee and the American public that Florida's beaches are as 
clean as beautiful as ever. Tourism in the State has risen, and 
there are great bargains for many people to come and visit 
Florida.
    [Laughter.]
    Ms. Carroll. One of the reasons Florida has been able to 
adequately respond to the DWH spill is because our State and 
our businesses were protected by Federal law, such as the Oil 
Pollution Act of 1990. OPA '90 has been a key component in 
Florida's recovery effort.
    Chairman and Members, Florida is greatly concerned about 
the uncertainty of the application of OPA '90 to drilling in 
foreign waters. OPA '90 identifies a responsible party that is 
held accountable financially for response, recovery, 
remediation, economic and natural resource damages. Without the 
protection afforded by the Federal law, all costs would be 
borne by Federal, State, and local governments. Furthermore, 
Florida is very concerned with the ability to have funding for 
third party claims in the event of a spill.
    Florida had more third party claims than any other State as 
a result of the Deepwater Horizon incident, despite the less 
than expected oil which reached its shores. Much of this effect 
was due to the large negative impact on the vital tourism 
industry throughout the State. There is uncertainty in a 
scenario with a foreign source of spilled oil on the funding 
and processing of third party claims and the associated 
timeline for such claims.
    A tremendous number of Florida's citizens depend on a 
vibrant tourism industry to sustain their livelihood, and they 
would be devastated economically by a major foreign oil spill, 
even if the oil does not reach our shores.
    Florida strongly urges the Federal Government to develop 
and market a plan to address how our citizens can be 
compensated for damages created by a foreign oil spill. It is 
imperative that the Federal Government develop an international 
agreement that will give clear direction and guidelines for 
financial responsibility, recovery, remediation, economic and 
natural resource damages, in the event of an oil spill like 
those outlined in OPA '90 or the legislation that Congressman 
Rivera has sponsored.
    Working with our Federal, local, and private sector 
partners, Florida believes that we have positioned ourselves to 
be as ready as possible in the event of a spill. In addition, 
we have been assured that the Coast Guard has worked with 
Repsol YPF, the company conducting initial exploration drilling 
off Cuba, to develop a good relationship and specific plans 
should a response ever be necessary.
    Unfortunately, response plans does not provide legal 
remedies to make injure parties hold or assume responsibility 
for restoring Florida's natural environment that may be harmed.
    Florida is also heartened that multilateral discussions are 
ongoing with all of the Nation's drilling in the North 
Caribbean Basin, or those potentially impacted by offshore oil 
exploration. These talks need to continue in order to ensure 
the Federal Government has the necessary authority and 
relationship to respond swiftly and effectively in an offshore 
environment to minimize the amount of oil spill which may reach 
Florida's shoreline.
    There were many lessons learned from Florida's experience 
with the DWH incident, and several organizations, including the 
U.S. Coast Guard, spent many hours developing a thorough 
analysis outlining those issues.
    As a followup to that analysis, the State of Florida, 
Department of Environment Protection, the Division of Emergency 
Management have worked diligently with the Coast Guard and 
local governments to apply the lessons learned, and ensure that 
more specific protection plans are developed for coastline 
counties.
    In addition, on November 2011, the major Federal, State, 
local, and corporate parties who would be involved in a 
potential Cuban oil response, performed a table top exercise to 
ensure that everyone understood their roles and responsibility 
in the event of a spill, and to identify any gaps in that 
response planning to date.
    In conclusion, Mr. Chairman and Members, the State of 
Florida has been prepared for the eventuality of oil drilling 
off Cuba's coast. We have been working with the U.S. Coast 
Guard and organizing our State agencies. Additionally, we have 
applied the lessons learned from the Deepwater Horizon 
incident, and we are determined to keep Florida's beaches, 
coral reefs, waterways, fisheries clean and open.
    We are also aware of the type of government that we are 
dealing with in Cuba. The dubious track record only focuses 
Florida and our private and public sector partners on being 
even more prepared.
    On behalf of Governor Rick Scott and the people of Florida, 
I thank you and the committee in taking the initiative to 
address this critical issue and to look forward to working with 
you on this and many other issues that the Transportation 
Infrastructure Committee has before it that can help us 
continue Florida's strong economy.
    Thank you, Mr. Chairman and Members.
    Mr. Mica. Thank you, again, Lieutenant Governor Carroll. 
And I do know you have to scoot back to the State capital, and 
any time that you want to go, feel free to leave. But we, 
again, are just very grateful that you would take time, and 
also state the position of the State of Florida before the 
panel today. And we look forward to working with you. So, thank 
you again.
    We will turn now to our second witness. We are pleased to 
have Rear Admiral William Baumgartner, who is the commander of 
United States Coast Guard Seventh District. Admiral 
Baumgartner, thank you for being with us, and I will yield to 
you for your statement.
    Admiral Baumgartner. Good morning, Chairman Mica, 
subcommittee members, Members of the Florida delegation. As 
commander of the Seventh Coast Guard District, I am the pre-
designated Federal on scene coordinator for any spill that 
threatens the U.S. exclusive economic zone within my district, 
even if that spill originates in foreign waters. As such, I 
will focus my testimony on tactical matters.
    A spill from offshore drilling in the Cuban, Bahamanian, or 
Mexican EEZ would present a significant threat to the United 
States. The international nature of the incident, along with 
swift currents, would generate additional challenges. I assure 
you that I will use the full extent of the authorities 
available to me to attack any oil spilled as aggressively as I 
can as close to the source as possible so that we can best 
protect the environmental, economic, and security interests of 
the United States.
    Prompt notification will be critical to any response 
effort. The expected drilling sites areas are already patrolled 
extensively by Coast Guard aircraft and cutters engaged in our 
drug and migrant smuggling interdiction missions. We have 
increased the training of those crews to improve their ability 
to spot and identify potential oil pollution. We have also been 
actively engaged with the maritime industry, including the 
Cruise Line International Association and others to educate 
them on these dangers. These partners will provide an 
additional layer of awareness and vigilance for us.
    Based on the lessons learned from Deepwater Horizon, we 
revised our regional contingency plan and added an annex to 
address international sources of oil pollution. We completed 
revamped the area contingency plans, and we also developed a 
special offshore response plan.
    During our planning efforts, we conducted extensive 
engagement with Federal, State, and local agencies as well as 
industry, academia, and nongovernmental organizations. I have 
briefed Governor Scott and Lieutenant Governor Carroll on 
several occasions.
    Both the Florida Division of Emergency Management and the 
Department of Environmental Protection have been exceptional 
planning partners. I have also talked and worked with Visit 
Florida.
    Likewise, my sector commanders throughout Florida have 
engaged their area committees in revising area contingency 
plans. These committees include not only Federal, State, and 
local agencies, but also nongovernmental organizations with a 
wide range of maritime and environmental interests.
    We updated our geographic response plans which highlight 
environmentally sensitive areas and identify appropriate spill 
response tactics. In addition, we updated 80 tidal inlet 
protection strategies. These strategies are designed to prevent 
oil from entering the fragile ecosystems of inshore areas. We 
have included the Corporation for National and Community 
Service to help us coordinate volunteers who want to assist 
cleanup efforts.
    Based on the lessons learned from the Deepwater Horizon, we 
developed an offshore response plan with strategies, tactics, 
and command and control features for a spill in the offshore 
environment, including coordination with foreign response 
efforts.
    The offshore command will work directly for me and will 
complement command posts established by our sectors in 
nearshore areas. The offshore command will integrate Federal, 
State, industry, and nongovernmental organizations into a 
unified command for offshore response activities, including 
source control, dispersants, in-situ burning, and offshore 
mechanical recovery of oil. This plan has received attention 
from all levels of government and industry. More than 80 
persons participated in our exercise last November.
    The Coast Guard has also been issued OFAC and BIS licenses 
that will allow us and U.S. response companies working under 
our direction to attack oil in the Cuban EEZ.
    In the event of a major spill, we will immediately begin 
deployment of critical resources to the areas with the greatest 
probability of shoreline impact. Aircraft and vessels will 
monitor the situation offshore and coordinate the need for any 
search and rescue support. We will employ every response tool, 
including surface dispersants, in-situ burning, and mechanical 
recovery, to attack the offshore oil quickly.
    However, in any large spill, some portion of the oil will 
likely evade all offshore response efforts. Command posts in 
Key West, Miami, Jacksonville, and potentially other locations 
will focus on protecting the nearshore environment. Their top 
priority will be implementing tidal inlet protection strategies 
to prevent the oil from passing between barrier islands.
    In addition, they will activate plans to protect critical 
and unique resources, including power plan cooling intakes and 
marine mammal research facilities. They will also work hard to 
maintain the maritime transportation system in South Florida's 
critical ports of Miami and Port Everglades.
    While I am confident that we have a sound plan, we will 
face challenges. The fast currents of the Florida State will 
challenge additional response activities. The use of boom will 
also be different than the public might expect. Boom will be 
used primarily for tidal inlet protection. We should not expect 
to see a cocoon of boom around the entire Florida coast. 
Booming near strong currents must be done with precision and 
restraint; otherwise, endangered sea grass and coral unique to 
South Florida ecosystems could be at greater risk from the 
anchoring systems required to hold the boom in place than from 
the oil itself.
    I thank you for the opportunity to testify today, and I 
look forward to any questions you might have.
    Mr. Mica. Thank you, and we will hold questions until we 
have heard from all of the witnesses. Is Rear Admiral Cari 
Thomas going to also testify? OK.
    Admiral Baumgartner. Yes.
    Mr. Mica. Then let us recognize her, and she is the 
director of the response policy activities for the United 
States Coast Guard. Welcome, and you are recognized.
    Admiral Thomas. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, subcommittee members, and Members of the South 
Florida delegation. I am pleased to have this opportunity to 
discuss the Coast Guard's plan for responding a spill that 
occur outside our exclusive economic zone, and our ongoing 
efforts to protect U.S. interests and U.S. waters by minimizing 
the risk of a discharge.
    As the director of Coast Guard Response Policy, my duties 
include overseeing incident management policies. Drawing upon 
my 14 different assignments, including three separate duty 
stations in South Florida, I have been involved with a number 
of incidents or disasters, including hurricanes, ship 
groundings from fires, airplane crashes, mass migrations, as 
well as hundreds of search and rescue cases in the Straits of 
Florida and off Cuba and Haiti. Each of these events reinforce 
the principle of preparedness. Advanced and extensive planning 
exponentially improves the quality of response. The Coast Guard 
has been fully engaged to prepare and prevent a spill so it 
minimizes affecting the economy and the environment.
    Under the International Maritime Organization, the Coast 
Guard participated in a series of multilateral seminars focused 
on oil spill contingencies in the Caribbean. These engagements 
are fostering a common understanding of international 
obligations and standards for oil spill preparedness, 
prevention, and response. The seminars build upon the framework 
of the Caribbean Island Oil Pollution Response and Cooperation 
Plan.
    Participants included technical level planning experts in 
drilling, plans, and equipment, emergency spill preparedness 
and response, and ocean modeling. Our engagements with the 
Northern Caribbean countries is well under way in improving 
collaboration essential to contingency planning.
    The Coast Guard also has a full visibility of Repsol's 
response strategies, resources, and capabilities. Repsol 
invited Coast Guard observation and preparedness exercise in 
July 2011. They also provided access to key documents, 
including their oil spill response plan, and extensive review 
of that plan found it to be aligned with U.S. and international 
standards.
    Repsol volunteered to undergo a pre-arrival review of their 
drilling rig. The review compared this vessel with applicable 
international safety and security standards, as well as U.S. 
standards for units operating on the Outer Continental Shelf. 
The vessel was generally compliant with existing international 
and U.S. standards.
    The Coast Guard has asked the international consortium oil 
and gas producers to engage other companies planning to drill 
in the Caribbean offshore. We would like to include all 
prospective drilling companies in future multilateral efforts 
on regional oil spill prevention and response efforts.
    As I mentioned earlier, contingency planning, training, and 
exercises are fundamental to our readiness. Contingency 
planning occurs under the national contingency plan at several 
levels. At the national level, the Coast Guard serves as the 
vice chair of the National Response Team, which ensures 
national capabilities are available to support response 
efforts. Specific to readiness for Caribbean drilling, we have 
leveraged the Federal Interagency to ensure a united approach 
to readiness. The Coast Guard has obtained license from OFAC 
and BIS, which allow us to direct U.S. response operations in 
the Cuban EEZ in the event of a spill.
    As you heard Admiral Baumgartner state, the district 
participates through the regional response teams on issues such 
as dispersants and in-situ burning on preauthorizations. 
Response Team 4, which is co-chaired by District 7, has updated 
the regional contingency plan, and, as he said, includes an 
annex on international offshore oil spills.
    The Coast Guard is confident that our partnerships at the 
national, regional, and local levels strengthen our planning 
process and our readiness for oil spill response.
    Any disaster response requires the whole of community and a 
unity of effort across all levels of government, industry, and 
the private sector. In the event that a spill does occur within 
the Cuban EEZ, the Coast Guard will mount an immediate response 
in partnership with other Federal, State, tribal, and local 
agencies. We will focus on combatting the spill as far offshore 
as possible and as close to the source as possible using all 
viable response tactics.
    As a Florida resident for over 20 years and a property 
owner in Miami-Dade County, I understand a citizen's concern 
for the economy and the environment. The Coast Guard initiated 
aggressive preparedness measures to ensure readiness to respond 
to what would be a low probability, but high consequence event.
    Thank you, and I look forward to answering any questions 
you may have.
    Mr. Mica. Thank you, and, again, we will withhold 
questions.
    We will now recognize Debbie Payton. She is the chief of 
the Emergency Response Division at the NOAA office of Response 
and Restoration. Welcome. You are recognized.
    Ms. Payton. Thank you, Mr. Chairman and members of the 
subcommittee and Members of the Florida delegation for the 
opportunity to speak with you today.
    Mr. Mica. I do not think we can hear her.
    Ms. Payton. I do not think it is on.
    Mr. Mica. Pull it up as close as you can.
    Ms. Payton. OK. Can you hear now? Yeah, I do not think this 
one--now it is on.
    Mr. Mica. There you go.
    Ms. Payton. OK. Now it is on. Thank you. OK.
    My name is Debbie Payton, the chief of the Emergency 
Response Division for the National Oceanic and Atmospheric 
Administration's Office of Response and Restoration.
    I am going to switch mics. OK. Let us try this again. OK.
    With over 30 years of experience in oil spill response, 
NOAA clearly understands spills can harm people and the 
environment and can cause substantial disruption to marine 
transportation and tourism, with potential widespread economic 
impacts.
    NOAA has three critical roles in spill response. That first 
role is during emergency response, NOAA serves as the conduit 
for bringing science information into a response so that 
decisions that the Federal on-scene coordinator and unified 
command are making are based on the best available scientific 
information. We do that through regionally distributed 
Scientific Support Coordinators.
    The second role is as a natural resource trustee, NOAA 
conducts, with co-trustees, natural resource damage assessments 
to evaluate the impact and lost resources during a spill event.
    And then, finally, NOAA represents the Department of 
Commerce in spill response decisionmaking and preparedness 
activities through the National Response Team.
    In addition to those roles that NOAA plays directly for 
spill response, NOAA provides weather forecasting, satellite 
services, navigational services, fisheries and sanctuaries 
management, ecosystem mapping and analysis, and research labs, 
one of which is located right here in Miami-Dade, the Atlantic 
Oceanographic and Meteorological Lab, that do research into all 
of these things so they can be brought into the service part.
    As mentioned by previous speakers, the Coast Guard has been 
working very aggressively to update the area contingency plans, 
and NOAA has been involved in that effort in a number of ways. 
The one which I am going to speak with the committee about 
today is focused particularly on the potential threat from a 
modeling and oceanographic standpoint to the coast of Florida, 
and actually farther up the eastern seaboard as well.
    This modeling study follows on the earlier efforts 
conducted by then MMS, the Bureau of Ocean Energy Management, 
and some studies that the U.S. Coast Guard was able to get 
access to through Repsol for their oil spill response planning 
modeling efforts.
    In a real spill, the scenario is known. You know where the 
oil is being released from nominally, how much oil and what 
type of oil. And you know the environmental conditions, what 
the currents are, what the winds are, any storms coming up or 
anything else. In planning like this, you do not have the 
benefit of knowing that, so you have to count on 
climatological/historical information. And that is what the 
studies that I am going to briefly touch on today will talk 
about.
    Surface oil movements generally are affected by winds and 
currents and the characteristics of the oil itself. And, 
Chairman, as you mentioned, as you identified in your opening 
speech, the Florida area is very unique in that you have a 
very, very persistent current here in the Gulf Stream system. 
Between the loop current and the Florida current and the Gulf 
Stream current, that is a very strong system that will dominate 
the movement of the oil.
    The significance of these strong currents is they can move 
oil very quickly, potentially up to 70 or 80 nautical miles in 
a 24-hour period, much faster than the hundreds of spills that 
we respond to each year.
    The modeling results can be significantly different 
depending on where you look at for an initial release site. 
And, with the Coast Guard, we have identified a number of 
sites. If you look at that second map all the way to the west, 
all the way to the east. The results that I will speak really 
briefly about are only from the first potential drilling site, 
Repsol's site, about 16 miles north of the Cuban coast. If 
people are interested, in the Q&A I would be happy to address 
results from other sites as well.
    We made assumptions for the modeling. We do not know what 
kind of oil it will be, how much could potentially be released. 
So, we assumed a 75,000 barrel per day release for 90 days from 
that site of a medium crude oil. The model has been set up with 
fairly large squares, 100 nautical mile squares. And what you 
do, since you are looking at historical data, is count how many 
scenarios impact a square. You run hundreds of scenarios with 
tens of thousands of particles and count how many scenarios 
impact each area.
    What we find from that is, in general, from that first site 
and looking at surface oil only, while a good portion of the 
oil remains offshore, there are a number of scenarios, at least 
40 percent, and upwards of that in some portions of Florida 
coast, that could have some oil from a release at that site 
impact Florida coastlines.
    The fastest is in one of the scenarios, oil reached the 
east coast of Florida in 5 days, but in 95 percent of the 
scenarios the first oil reaches the east coast in 10 to 20 
days.
    The Florida Keys show lower impact probabilities, on the 
order of 20 to 30 percent. And the reason for that is, from 
that site, you have to cross a very strong current to get to 
the Florida Keys. As a matter of fact, most of the impact 
showing the Florida Keys are under scenarios where the oil goes 
to the west first, then goes north, gets into the loop current, 
and comes to the Florida Keys. So, actually, although one 
scenario had an impact in 3 days in the Keys, 95 percent were 
20 to 30 days to impact the Keys. So, actually longer because 
you've got to get across that very strong current.
    Probabilities decrease northward from the Florida border, 
but increase again as you get near Cape Hatteras where the Gulf 
Stream comes very close to the coastline.
    North of Chesapeake Bay, none of the modeled scenarios 
showed impact above a level of concern. And in doing these 
kinds of analyses, you have to decide what your level of 
concern is; the level that we chose was 500 barrels per grid 
cell, so that is 500 barrels over 100 square nautical miles. 
That is equivalent to about 25 percent of that 100 nautical 
miles square being covered with a sheen, or the equivalent of 
what we are more likely to see impacts in Florida of 124 
tarballs per football field.
    Inside the Gulf of Mexico, from that first site, the risks 
are relatively low, more on the order of 10 percent.
    NOAA is committed to continuing to work with the spill 
response community and the Coast Guard to provide the best 
possible science to support a robust and effective planning 
process to ensure we are as prepared as possible should a spill 
occur in this offshore region.
    Thank you for the opportunity to testify before you today, 
and I look forward to questions.
    Mr. Mica. Well, thank you, and we will hear now from Lars 
Herbst, and he is the regional director of the Gulf of Mexico 
region for the Bureau of Safety and Environmental Enforcement, 
U.S. Department of Interior. Welcome, and you are recognized.
    Mr. Herbst. Thank you, Mr. Chairman, and members of the 
committee. I would like to thank you for the opportunity to 
participate in today's hearing. I am Lars Herbst, regional 
director of the Gulf of Mexico region for the Bureau of Safety 
and Environmental Enforcement.
    BSEE is the agency responsible for enforcing safety and 
environmental standards regarding oil and gas exploration 
development and production activities on the United States 
Outer Continental Shelf.
    Today I would like to share with you information on the 
actions taken to ensure, within our ability to do so, that oil 
and gas operations in neighboring waters outside the United 
States jurisdiction are undertaken in a safe environmentally 
responsible manner consistent with international and industry 
standards.
    As you know, the 2010 Deepwater Horizon blowout and oil 
spill prompted the most aggressive and comprehensive reforms to 
offshore oil and gas regulation and oversight in U.S. history. 
Our new standards and other reforms are designed to promote 
safety and protection of ocean environments and coastlines and 
the exploration, development, and production of U.S. offshore 
mineral resources.
    The Department of Interior and BSEE have taken an active 
approach to identify and become involved in international 
initiatives that promote integration of safety and 
environmental concerns in offshore development decisionmaking. 
This approach includes sharing lessons learned and best 
practices for safety and environmental standards, participating 
in technical and information exchanges with our international 
regulatory counterparts, and providing technical advice to the 
U.S. Department of State, other relevant U.S. agencies, and the 
next generation of oil and gas producing countries.
    This international engagement is in addition to our 
continued coordination with key agencies across the Federal 
Government, including the Department of State, U.S. Coast 
Guard, the Environmental Protection Agency, and the National 
Oceanic and Atmospheric Administration.
    We also engage in ongoing communications with offshore 
industry, and oil response, and blowout containment companies. 
In particular, the Department of Interior and BSEE are working 
closely with other Federal agencies to address the potential 
threat of an oil spill in neighboring parts of the Gulf of 
Mexico that could affect U.S. waters, shorelines, and 
resources.
    Several countries on or near the Gulf of Mexico are 
expected to proceed with offshore drilling in their exclusive 
economic zones, or EEZ, in the near future. As you are aware, 
the Spanish oil and gas company, Repsol will soon begin to 
drill its offshore wells in Cuba's EEZ using a newly 
constructed mobile offshore drilling unit, or MODU, the 
Scarabeo 9. We also expect additional offshore drilling 
activity in the EEZs of Bahamas and Jamaica, and continuing 
offshore activity in Mexico's EEZ.
    BSEE is actively engaged in U.S. Government efforts to 
promote drilling safety measures to prevent oil spills. These 
activities including cooperating with our regulatory agency 
counterparts in the region, including Mexico, through bilateral 
and multilateral mechanisms to develop common safety and 
response standards, and communicating with Repsol to encourage 
its compliance with U.S. drilling safety and related 
environmental standards.
    While BSEE does not have oversight authority over Repsol's 
activities in the Cuba EEZ, beginning in February of 2011, at 
Repsol's request, we entered into discussions concerning 
Repsol's potential activity offshore Cuba and its plans related 
to drill and well control.
    We have made clear in our numerous communications with 
Repsol that we expect Repsol to adhere to industry and 
international environmental, health, and safety standards, and 
to have adequate prevention, mitigation, and remediation 
systems in place in the event of an incident. Subsequently, 
Repsol officials have stated publicly that in carrying out its 
exploratory drilling plans in Cuban waters, it will voluntarily 
adhere to U.S. regulations and the highest industry standards.
    Repsol offered U.S. agencies an opportunity to board the 
Scarabeo 9. BSEE and the U.S. Coast Guard accepted. On January 
9, 2012, experts from BSEE conducted a review of the Scarabeo 9 
while the rig was off the coast of Trinidad and Tobago.
    While aboard the Scarabeo 9, BSEE officials examined the 
rig's vessel construction, drilling equipment, and safety 
systems, including the blowout preventer. Based on the 
information shared by Repsol, BSEE was able to use its well 
containment screening tool to conclude that the well could be 
safely capped using existing methods.
    The review was designed to familiarize ourselves with the 
rig and provide guidance to Repsol on how to ensure that its 
safety measures meet U.S. standards. The review was consistent 
with U.S. regulatory efforts to minimize the potential for a 
major oil spill that would hurt U.S. economic and environmental 
interests.
    The review evaluated the vessel for consistency with both 
applicable international safety standards and U.S. standards 
for drilling units operating in the Outer Continental Shelf of 
the United States. The review's work scope involved a 
comprehensive pressure and function testing of the BOP, focused 
discussions with rig personnel, and a walk through of the rig 
that included key visual observations and a physical testing of 
devices.
    As I noted earlier, BSEE does not exercise oversight 
authority over the Scarabeo 9 or its intended operations in the 
Cuban EEZ. Accordingly, our review does not confer any form of 
certification or endorsement under U.S. or international law. 
While our review of the rig was not as exhaustive as our review 
of a rig operated in the U.S. OCS would be, BSEE officials 
found the vessel and the drilling safety equipment, including 
the BOP, to be generally consistent with existing international 
and U.S. standards by which Repsol has pledged to abide.
    We will remain in communication with Repsol as it moves 
forward with its activities to provide any further guidance it 
may seek.
    In anticipation of an increase in drilling activities in 
the Caribbean Basin and the Gulf of Mexico, the United States 
is participating in multilateral discussions with the Bahamas, 
Cuba, Jamaica, and Mexico on a broad range of issues, including 
drilling safety related to prevention of an accident and oil 
spill preparedness in response, such as subsidy containment 
were a spill or subsidy blowout to occur.
    A series of multilateral meetings are being conducted under 
the auspices of the International Maritime Organization. The 
most recent meeting was hosted by the Bahamas in early 
December. The next meeting is scheduled to begin tomorrow in 
Curacao.
    I was one of BSEE's representatives at the most recent 
multilateral discussion. All of the country's delegates were 
highly engaged in constructive discussions regarding preventive 
regulatory frameworks, safety standards for mobile offshore 
drilling units, and best practices in oil spill prevention and 
containment. Our goal is to increase regional cooperation and 
joint planning for oil spill prevention, preparedness, and 
response measures for offshore units with a goal of minimizing 
pollution of marine and coastal environments.
    I expect that this week's seminar will continue these 
positive interactions and provide BSEE personnel the 
opportunity to share further lessons and recommendations.
    In addition, BSEE and its predecessor agencies have been 
collaborating with officials from all levels of the Mexican 
Government since the late 1990s on issues related to safe and 
responsible development of oil and gas resources in the Gulf of 
Mexico. This cooperation has increased substantially in the 
aftermath of the Deepwater Horizon and after the creation of 
the National Hydrocarbons Commission, or CNH, the Mexican 
agency responsible for regulating offshore drilling activity.
    BSEE and CNH are working towards a set of common safety 
environmental standards through a series of bilateral technical 
workshops. Following a workshop held this summer at BSEE's Gulf 
of Mexico regional office, the U.S. and Mexico developed an 
action plan to define subject areas for the creation of common 
standards would be appropriate.
    In summary, the Department of Interior and BSEE, through 
ongoing bilateral and multilateral engagement with our foreign 
counterparts in areas of shared interest and concern, is an 
essential component for the protection of U.S. environment and 
economic interests, and an effort that can be mutually 
beneficial.
    Thank you, and I look forward to your questions.
    Mr. Mica. And we will now recognize Dr. John Proni, and he 
is the executive director of the Florida International 
University Applied Research Center. Welcome, sir, and you are 
recognized.
    Mr. Proni. Thank you, Mr. Chairman, and members of the 
committee for giving me the opportunity to talk here today.
    I applaud the response plan that has mentioned by Admiral 
Baumgartner and the work that the Coast Guard has done. As you 
will see in a few minutes, I consider that we should have a 
broader plan, a proactive plan, which should go into effect 
now, which will enhance the scientific understanding that is 
required to deal with a prospective oil spill, and to improve 
our ability to respond to such spill.
    The direct answer to the question as to whether oil, either 
in episodic event releases or in chronic releases which can 
occur in the development of an oil field reaching U.S. coastal 
waters, is yes. There is a finite probability that this will 
occur.
    To compare and to enhance our discussion, we could make a 
comparison quickly with the Deepwater Horizon versus what might 
arise in the Cuban exclusive economic zone. If we look at the 
middle chart of the three charts shown here, you see the 
location of multiple sites that are programmed for either 
present or future development. This is a multiyear operation, 
so we may expect multiyear releases and impacts arising, not 
just from oil spill, but from chronic releases due to such 
things as drilling fluid releases, reduced water releases, and 
a host of other type releases. This is a not a short-time, one-
event circumstance.
    If you look at those sites and then you look at the next 
chart, and you see there the oil spill indicated, that is the 
site of the Deepwater Horizon spill. If you look below where 
you see South Florida, and the Cuba, and the Yucatan Channel, 
and you see that line that enters in the form of a loop and 
then proceeds to the east of the Florida coast, that is one 
general model of the loop current Gulf Stream system.
    The point out of that chart is if you look at the distance 
from the Deepwater Horizon oil spill to the site of the Cuban 
dredging oil drilling, and compare it to the proximal location 
of that current to the Cuban coast, it is immediately apparent 
that the likelihood and possibilities of entrainment of the 
oil, either an event type or chronic releases, can occur very 
quickly. That is the first significant difference between the 
Deepwater Horizon and the Cuban possibility.
    The second difference lies in the way the oil may get into 
the stream. For the sites shown in the Cuban area, there will 
be a possibility of the oil being released south of the stream, 
under the stream, and north of the stream, depending on the 
variations in the motion of the stream and the sites.
    Entrainment under the stream was not a phenomenon seen to 
any significant degree in the Deepwater Horizon spill, but it 
is likely to be a phenomenon seen in the Cuban exclusive 
economic zone drilling.
    The third significant feature is we lack the ability to 
carry out comprehensive drilling fluid evaluation. We lack the 
ability to fully characterize the oil in the near to Cuban 
sites. And we lack the ability to apply near site remediation 
possibilities, including advanced technologies that were not 
significantly utilized in the Deepwater Horizon spill.
    For example, we have heard discussions of reparations for 
the impacts of Cuban oil on the U.S. coast. To put strength 
under the claim of a reparation, you have to be able to show 
that the oil that is in your coast did, in fact, originate from 
the Cuban site. To do that, you have to characterize the Cuban 
oil, and you have to characterize not only at the site, but you 
have to characterize it at different distances from where it 
originates.
    In any case, I believe we should put into a place a 
proactive plan that utilizes the outstanding local expertise 
available and multiyears of experience that a group of 
universities and the regional Federal labs have. And that 
situation should be implemented now so that there is not a 
delay in the gathering of knowledge, and not a delay certainly 
in administrative and financial matters regarding such an 
event.
    Finally, I will just close with a comment about the 
probability of Deepwater. If you look at the third chart, you 
will see that chart is effectively a sonogram of oil from the 
IXTOC oil well release in 1979. It is a picture made using 
sound of oil plumes in the body of water that are moving away 
from the well site. That first picture is made at about half a 
nautical mile away from the well site; the second picture is 
made about 13 nautical miles.
    Now, I would say that the possibility exists that for deep 
drilling, that multiple such plumes occur, and we have to be 
prepared to know they exist and to be able to respond to that 
existence.
    So, again, I thank the committee, and, again, I stress that 
we have a consortium of universities and Federal laboratories. 
The local regional NOAA labs, AOML, NHC, and the Southeast 
Fishery Centers, and NOVA University, the University of Miami, 
and FIU, are people with the expertise and modeling, the high 
resolution modeling, that is going to be required to really 
address this problem.
    So, Mr. Chairman and members of the committee, thank you so 
much for your attention.
    Mr. Mica. Thank you for your testimony, and I want to thank 
all of the witnesses for their participation today. We will go 
immediately now to questions, and I will start. And then we 
will recognize other Members.
    Admiral Baumgartner, first of all, there is one rig out 
there, and that rig is in place. Are they drilling? Do we know 
if they are drilling now?
    Admiral Baumgartner. My information is that it is close to 
where the drill is, but is not necessarily at the drill site.
    Mr. Mica. See, I was told that it is at the site and the 
drilling would start immediately.
    Admiral Baumgartner. We had expected that----
    Mr. Mica. Do we know? We do not know?
    Admiral Baumgartner. We know where it is at right now. We 
have ways of knowing those things.
    Mr. Mica. Yes, but, I mean, and that should be something 
the United States knows is is that in place, and have they 
begun drilling.
    Admiral Baumgartner. My information from this morning is it 
is not quite at the location, and the oil rig is not----
    Mr. Mica. OK, but it should be fairly imminent?
    Admiral Baumgartner. Yes.
    Mr. Mica. Then I was told because of the cost of these 
rigs, this is a half-a-billion-dollar rig or whatever it is, 
and it is millions of dollars a day, that they will start 
almost immediately? Is that your information?
    Admiral Baumgartner. Yes, sir. I think probably three-
quarters probably in that neighborhood to buy it, and then a 
half a million dollars a day in leasing costs.
    Mr. Mica. So, they will start----
    Admiral Baumgartner. So, they will start as soon as they 
can.
    Mr. Mica. So, probably within days, they will be actually 
drilling. And is it 56 miles that first site off the Florida 
Keys, do we know?
    Admiral Baumgartner. Sir, first----
    Mr. Mica. Because the site was already pre-identified.
    Admiral Baumgartner. Right. The pre-identified site is 
about 16 miles north of the Cuban coast, and it is about 80 
miles from Key West.
    Mr. Mica. Eighty miles from the Keys.
    Admiral Baumgartner. About 80 miles, yes, sir. But it is 
still about the same distance from the Keys.
    Mr. Mica. OK. All right. So, the other thing, too, is, 
these are deep water, and this is a deep water well, and it is 
expected to be deeper than the Deepwater Horizon?
    Admiral Baumgartner. Yes, sir. We expect this to be about 
5,870 feet of water depth for this first drill site.
    Mr. Mica. And I understand the same thing that we are 
looking at with the Bahamas? That is also deep water?
    Admiral Baumgartner. There are some deep water sites there. 
There are also some shallower water sites there.
    Mr. Mica. How far off are the Bahamanians from having a rig 
off their shores, do we know?
    Admiral Baumgartner. The latest estimates that we have is 
that at best case, the middle of next year.
    Mr. Mica. OK. The other thing that came to mind, I mean, we 
try to make certain that you have the resources necessary. We 
are in a horrible budget deficit situation here. We are 
spending over $1 trillion more than we are taking in a year. 
Your agency has been hard hit. Is this stretching your 
resources? Have you been working with the administration on 
your budget for this--well, it will be announced by the 
President, I guess, by April. Have you asked for more money to 
be able to respond now that the area sort of danger has 
expanded?
    Admiral Baumgartner. Well, sir, the principle response 
costs come out of the Oil Spill Liability Trust Fund, so it 
does not come out of the appropriated budget for my 
particular----
    Mr. Mica. And that is another nice thing I am finding out, 
too, from staff that we have no way to replenish that. And Mr. 
Rivera's bill tries to claim money from those who do damage to 
us, but they have really no obligation to pay, at least under 
existing law. So, that is going to take a big hit, that fund. 
And it would not be replenished.
    Admiral Baumgartner. Well, sir, the legal obligations and 
the status of responsible parties and responsible entities are 
something that the Justice Department has been working very 
hard on, and there are not necessarily set answers there. But 
certainly there are possibilities to assert and make sure that 
the polluting parties are held responsible.
    Mr. Mica. Well, again, I am not sure how you do that. And, 
again, I think they are outside the reach of the United States 
and Department of Justice. We have not had exactly the greatest 
working relationship with the Cubans at last check.
    OK. Now, you also testified that you reviewed the spill 
containment plan, is that true, that Repsol has?
    Admiral Baumgartner. My staff has reviewed and had been 
able to look at it.
    Mr. Mica. Now, wait a second. That is not something that 
you are normally charged with. Is that not Department of 
Interior? If we were in a situation, the Department of Interior 
and you have a licensing and all. Your enforcement, but we 
divided that up. Does not the Department of Interior review any 
of those permits or plans? In fact, that was one of the 
problems that we had the spill in the Gulf is the Department of 
Interior carte blanche and almost no time approved an oil 
response plan. It just so happened that they took one, I guess, 
that was from Alaska because it included walrus, polar bears, 
and some other things we found out after the fact.
    Did you participate with the Coast Guard or anyone from 
Interior in looking at this plan?
    Mr. Herbst. Mr. Chairman, we did have folks from our 
headquarters office that are involved with regional oil spill 
response planning on this. But it was not reviewed at the same 
level that we would have if it was----
    Mr. Mica. In fact, we have some control, but we have no 
control. OK. So, are you taking their word for it then? Again, 
I do not think the Coast Guard normally reviews oil spill plans 
and checks off on them, do you?
    Admiral Baumgartner. Well, there are two different parts of 
the plans. There is the drill plan, which the Coast Guard 
really has no expertise in.
    Mr. Mica. That is what I am talking about.
    Admiral Baumgartner. Then there is the contingency response 
plan.
    Mr. Mica. OK.
    Admiral Baumgartner. And the contingency response plan as 
to how they would address oil that has been spilled is 
something that--my staff has reviewed Repsol's plan and been 
able to look at that.
    Mr. Mica. Well, again, I am very concerned. I know the 
limited resources we have, the Coast Guard has, and to be doing 
cleanup work off of Cuba or for Cuba, just does not sit well 
with me. But, again, I think we are going to face some 
challenges.
    Dr. Proni said that we will probably get chronic releases. 
Is that right, chronic releases you said?
    Mr. Proni. That is correct.
    Mr. Mica. And then, the other thing that was startling was, 
Ms. Payton, you said that, wow. How far does this stuff go in 
24 hours?
    Ms. Payton. Given the strength of the current system, the 
loop current to Florida's current in the Gulf----
    Mr. Mica. You said 70 or 80 miles in 24 hours?
    Ms. Payton. Yes, if it was in the core of the current it 
could move that fast.
    Mr. Mica. I mean, God bless the Coast Guard to respond and 
by the time we could find somebody who was not paddling down 
the Colorado River or wherever he was to even look at what was 
going on.
    Well, again, you have to come in. And you said that 
containment cannot be done in the same manner. I think 
everybody agrees to this because of this rapid moving current. 
Is that correct, Admiral?
    Admiral Baumgartner. There are a couple of things that the 
current does affect in our ability to respond to a spill, and I 
mentioned some things in my testimony. I will kind of try to 
separate them a little bit.
    One is when you are out near the source, if the oil is 
moving in a swift current there, it does make things like in-
situ burning--corralling the oil and then lighting it on fire 
and burning it--more difficult because everything is moving.
    Mr. Mica. It would look nice at night, though, off the 
beach.
    [Laughter.]
    Admiral Baumgartner. Yes, sir. It makes mechanical skimming 
or skimming more difficult because the oil will move faster. It 
will disperse more quickly, so that is less effective. And it 
does the make the use of dispersants actually more effective 
because there is more mixing, and you need mixing for----
    Mr. Mica. We do not want to get into dispersants.
    Admiral Baumgartner. No.
    Mr. Mica. Has EPA figured out what we can use?
    Admiral Baumgartner. Sir, the Regional Response Plan 
already addresses dispersants and what dispersants would be 
pre-approved for initial use. But as we would go into the 
spill----
    Mr. Mica. Do we have great stores of that that is pre-
approved that EPA has approved? Do we have great stores?
    Admiral Baumgartner. We have tens of thousands of gallons 
of that. If we had a potential worse case spill of Deepwater 
Horizon proportions, the manufacturer can begin manufacturing 
large quantities of more skilled----
    Mr. Mica. If they do not get stopped by EPA.
    Admiral Baumgartner. Well, the primary dispersant is on the 
EPA approved list, so they can begin manufacturing more 
dispersant within 24 hours.
    Mr. Mica. Well, thank you. I am just a little bit shocked 
by the administration, what is it, 2 weeks ago, the President 
shot down and the administration, Keystone which they looked at 
for 3\1/2\ years. It looks like we are doing everything we can 
to accommodate the Cuban regime, and that we are going to get 
stuck with both the damage and also the cleanup costs.
    Let me yield to Mr. Hultgren?
    Mr. Hultgren. Thank you, Chairman. I have several questions 
to throw out, and so I wonder, if possible, if we could keep 
answers brief; it would be great.
    But I am going to start with Dr. Proni. I just have a 
question. If there was an oil spill from the North Cuba Basin, 
what would be the impact on U.S. waters and coastline? And I 
wonder specifically where you think oiling would likely occur 
on the U.S. coast, which areas would be hit first, and which 
areas would be most severely impacted?
    Mr. Proni. Well, sir, I have not yet made a detailed study 
of the transport of the oil, and it has been made with a high 
resolution model, which is what is needed here.
    But I do know from many years of study of pollution 
releases in the South Florida area that there are mechanisms 
for oil that might be entrained, say, within the first 100 
meters of the ocean to come onto our coral reefs as deep cold 
water events, which may be the meandering of the Gulf Stream, 
or may be eddy systems.
    But those systems occur all the way along the Florida 
coast. So, if you say where are the likely areas that it might 
come to shore in Florida, much of the coast is a likely area.
    Mr. Hultgren. Mr. Herbst, on January 9, 2012, you had 
mentioned the review systems of the Repsol mobile offshore 
drilling unit. I wondered would you have certified Repsol's 
mobile offshore drilling unit for operations in U.S. waters?
    Mr. Herbst. Our review is what we call a pre-spud review 
that we do. It is an informal review. It finds any issues that 
may exist on the rig. We did find some of those.
    Normally what we would do in the U.S., we would do a 
followup full inspection before the rig starts working. So, 
pretty much the first review, the pre-spud review, is a cursory 
review. It did find some issues. Repsol has indicated to us 
that they will resolve those issues before drilling.
    Mr. Hultgren. What were the most significant issues you 
saw?
    Mr. Herbst. There were some issues associated with a safe 
welding area on the rig. Also at the time that we did the 
review, wiring was not completed on several of the safety 
system, the gas detection systems, on the rig. Those are things 
that if it was going to enter the U.S. OCS, we would have done 
a followup to ensure that those were in place and tested.
    Mr. Hultgren. But with the review that was done, if there 
was not enough information to be able to give approval for that 
type of rig, to get approval or certification in U.S. waters, 
is that correct?
    Mr. Herbst. Right. The level of review that we did offshore 
in Trinidad and Tobago were not thorough enough to actually 
allow to drill in the U.S.
    Mr. Hultgren. OK. Rear Admiral Thomas, just a quick 
question for you. We have talked a little bit about the Clean 
Water Act and also the Oil Pollution Act of 1990. I just 
wondered if you could discuss briefly what actions, if any, are 
at our disposal to ensure international polluters comply with 
OPA or CWA, who might otherwise resist. Are there penalties 
encouraging them to cooperate with those?
    Admiral Thomas. One of the very important parts of the Oil 
Spill Liability Trust Fund is this concept that a polluter 
pays. And so, for those scenarios in which an identified ship 
can be held accountable for that, such as in Deepwater Horizon, 
we saw BP pay upwards of almost $22 billion as of earlier this 
month is what they have paid in that scenario.
    Now, if there is not a responsible party, the reason that 
the Oil Spill Liability Trust Fund was created was to provide 
for the U.S. claimants, if you did not know who spilled, could 
submit a claim to the United States and be made whole.
    And so, our finding is that irrespective of whether or not 
Repsol can be held accountable in this scenario, that the Oil 
Spill Liability Trust Fund could be used for both removal costs 
as well as claim costs. And, of course, we would have to work 
immediately with the committee to provide legislative relief 
for those caps that exist on the $50 million annually as the 
chairman indicated before. And it is up a $1 billion per 
incident cap. And any kind of catastrophic event would cause us 
to come to the committee right away for relief on those.
    Mr. Hultgren. Real quickly, my time is running out. But, 
Rear Admiral Baumgartner, I wonder if you could just address 
through what means the Coast Guard would be made aware of an 
incident on Repsol's mobile offshore drilling unit, and how 
much time would you expect to last between an incident and 
notification?
    Admiral Baumgartner. I would say if they have a major 
catastrophic release well blowout, we will know very, very 
quickly. We fly and we patrol in those waters, so we might 
actually see the incident as it developed.
    We also know that under international treaties and so 
forth, the Cuban Government has a duty to notify us promptly of 
any release that might affect our waters. And we would expect 
that we would get a fairly quick notification. So, I am not 
expecting that there would be much of a delay. However, since 
we patrol that area ourselves and we have other means to watch, 
we are going to do everything we can.
    So, I do not expect there will be a huge delay.
    Mr. Hultgren. So, it would have to be through our 
patrolling, or the Cuban Government notifying us.
    Admiral Baumgartner. We might also get it directly from 
Repsol, although they do not have a legal requirement to notify 
us necessarily. But I would expect that we might get it from 
all of those sources pretty promptly if there was a significant 
spill.
    Mr. Hultgren. Is there any way to require them, for Repsol 
to notify us? I mean, they would be the ones to know 
immediately if something happened, I would think. Is there any 
way for them to be required to notify us?
    Admiral Baumgartner. There are some possibilities, but in 
general, it is drilling in the Cuban EEZ. It is those rules 
that apply and the Cuban Government's rules that apply to them 
while they are drilling there.
    Mr. Hultgren. I have gone over my time. I yield back to the 
chairman.
    Mr. Mica. Mr. Long? Mr. Long, you are recognized.
    Mr. Long. Thank you. It is interesting to find out that 
Cuba is interested in international treaties provided by them.
    [Laughter.]
    Mr. Long. And I do want to make a note for the record how 
awestruck I am that we are sitting here having this discussion 
about apparently an administration aiding and abetting the 
Castro brothers in this endeavor.
    At the same time, we have a Keystone XL pipeline. Now, we 
do not have a chart here today, but if you had a chart of the 
United States of America that showed the pipelines in the 
United States, I think if you take a chart of the land the 
Government owns, they own more than anybody else, and more than 
half of the U.S., I think, is owned by the United States 
Government. Well, the chart of the pipelines look very similar.
    There are pipelines everywhere, and we are talking about 
state-of-the-art, XL pipelines, Keystone XL pipelines, from 
Canada to deliver to deliver the oil down to Houston. And we 
are sitting here today having this discussion about the chances 
of an environmental disaster in that situation are miniscule 
about what we are talking about here today.
    And, to me, that is just absolutely appalling that that 
project cannot move forward at zero cost to the Government, and 
we are talking about what I think Congressman Rivera says is a 
$1 billion cap on payments right now. And we just heard 
testimony that BP paid $22 billion on their fiasco here at the 
Deepwater Horizon. So, it is just a little mind boggling.
    Rear Admiral Baumgartner, on the lease payments, I think 
you said, how much a day is it, a half a million dollars a day?
    Admiral Baumgartner. It is somewhere in that neighborhood, 
yes.
    Mr. Long. Now, is that the lease payment made to the guy 
that owns the rig? Is that what that is? Does that go to the 
Castro brothers or what?
    Admiral Baumgartner. No, no, no. The Scarabeo 9 is owned by 
an Italian company.
    Mr. Long. That is what their lease would be.
    Admiral Baumgartner. That is right, and Repsol would pay a 
lease fee to that owner of the.
    Mr. Long. Right. That is what----
    Admiral Baumgartner. Yes.
    Mr. Long. I wanted to make sure on that.
    What the protocol and the overreaching authority I heard 
back at the time that the Deepwater Horizon was OK for safety 
procedures from some office on some island somewhere. Is that 
the same protocol that is followed here as far as safety and 
concerns? Is there a big difference in Deepwater Horizon and 
the wells that are going to be drilled down here? Has anything 
changed in that last case?
    Admiral Baumgartner. I am not sure that I follow the 
question. It might be better off for Mr. Herbst?
    Mr. Herbst. Mr. Congressman, I am not sure if I understand 
the question. If the question is just about----
    Mr. Long. The protocol and the safety concerns about the 
Deepwater Horizon, when we found out where that was licensed 
out of what was some island somewhere, the licensing authority.
    Mr. Herbst. Oh, OK.
    Mr. Long. Is this the same protocol here is my question.
    Mr. Herbst. I think it would be a Coast Guard flag state 
maybe issue.
    Admiral Baumgartner. That is right. The Scarabeo 9 is 
actually registered in and flies a Bahamanian flag. So, I think 
what you are talking about, in Deepwater Horizon, the Deepwater 
Horizon itself was the Republic of the Marshall Islands was the 
actual flag state. So, it is not a U.S. flagged drilling rig 
obviously. It is flagged in the Bahamas.
    Mr. Long. OK. Another question for you, Rear Admiral 
Baumgartner. Would a response to a spill in Bahamanian waters 
be different, and, if so, how than in Cuban waters? Are you 
able to respond differently there?
    Admiral Baumgartner. Well, for both of them, the primary 
response is obviously the Cuban Government or the Bahamanian 
Government. So, on the other hand, we obviously have better and 
open relationships with the Bahamanian Government. We work very 
closely on many things, smuggling, tourism, all kinds of 
things. So, we work every day with the Bahamanians. So, there 
would be an obviously closer relationship with them.
    Mr. Long. On sort of that same theme, while things have 
changed over time, the U.S. has maintained a full economic 
embargo against our friends in Cuba since 1962. And how will 
the current embargo most directly affect U.S. response 
operations if a spill were to occur in the North Cuban Basin?
    Admiral Baumgartner. Well, right now, I have authority to 
respond to oil that threatens the U.S. EEZ, so that is 
independent of the embargo.
    Licenses have also been issued to spill responders so that 
the U.S. companies can go into the Cuban EEZ to respond to oil 
that will eventually be coming to the United States. I 
mentioned in my testimony, and Admiral Thomas did as well, the 
Coast Guard has a license that allows us to take action in the 
Cuban EEZ as necessary, and U.S. companies that are acting 
under our direction in the Cuban EEZ can also enter into the 
Cuban EEZ and take action and to attack oil before it comes 
into U.S. waters and attacks our shores. So, those licenses are 
in place.
    Mr. Long. OK, thank you. I have several more questions, but 
my time has expired. I cannot yield back because I do not have 
any time, but if I could I would.
    Mr. Mica. Thank you. Mr. Gibbs, you are recognized.
    Mr. Gibbs. Thank you, Mr. Chairman.
    It seems like there are two major concerns. The drilling is 
probably going to occur, and the concern about containing it if 
there is a spill, and also liability of who is going to pay for 
any cleanup. And fortunately in the Deepwater Horizon, 
taxpayers did not really get stuck with the bill because BP had 
the resources to do that.
    Now, when it comes to reacting to a problem, and I heard 
the Coast Guard mention about the flights over, and you have 
got ways to obviously with all the other stuff you are doing, 
drug interdiction and all that. I am really concerned. You read 
about and hear about this administration, the massive cuts 
coming from the Defense, and hear Defense, the Navy in general 
and particular, the number of ships they are going to have 
comparable to what they had a few years ago. It is half.
    The question is for the Coast Guard, are you factoring in, 
are you seeing cuts in the number of assets you will actually 
have in place? And do you rely, because we are talking about 24 
hours.
    It looks like, from what I can see from the determination 
of testimony, that the Florida Keys might be protected because 
of that strong Gulf Stream. When it comes around, it probably 
would hit right out here, and within 24 hours potentially I 
think it was noted.
    Do you have enough assets to actually move that quick, or 
do you also depend on private sector assets? And is that a 
factor in what you are looking at if these defense cuts come 
about?
    Admiral Baumgartner. Yes, sir. First, we ought to clarify. 
The oil could move as far in 24 hours as 80 miles, but it did 
not mean that it is not going to move directly towards the 
State of Florida. It will move mostly coast wise parallel to 
our coast.
    Most of the projections would have oil at the quickest 
being somewhere around 5 days, although I probably should defer 
to Ms. Payton. But we are looking at more in the neighborhood 
of 5 to 10 days before oil would actually be showing up near 
our shores because of all the different ways that it interacts.
    Second, you said what resources would we rely upon. In the 
United States and in most countries, the primary resources that 
are actually touching the oil are private sector. The Coast 
Guard and other governments or the EPA if it is in the right 
zones would oversee, coordinate, and direct the spill, but we 
rely upon the private sector to actually go out and do the 
work. So, that is where the bulk of the resources come from.
    There are Coast Guard resources that can go out and attack 
the oil. So, we have some buoy tenders under my control and 
other places in the Coast Guard on the eastern coast that have 
spill recovery systems that they can rig up and actually go out 
and recover oil. And we would have other ships that would go 
out there and monitor and direct operations and coordinate 
them. But the vast bulk of it is going to be private sector.
    Mr. Gibbs. You said dispersants would be really effective. 
Is that done by air?
    Admiral Baumgartner. Aerial dispersants is the most 
effective way. Well, that is not area. But aerial dispersants 
would be used. The first resource that is looked at are 
commercial activities, so one of the companies that is licensed 
in this area already has contracts for aircraft to actually 
apply those dispersants.
    Now, there are Coast Guard aircraft that also have crews 
that are trained to go out if necessary and apply the 
dispersants. And the Air Force Reserve or Air National Guard 
also has a squadron that is specially prepared for this. It is 
up in Ohio actually up at Youngstown, Ohio. And they are set up 
to do this as well.
    Mr. Gibbs. Thank you. On liability, the International 
Maritime Organization, working through that and also Repsol is 
the Spanish company. I know Mr. Herbst requested you have 
discussions with countries around the Caribbean. Have the 
administration had any discussions with the Spanish Government 
on what they could do if there was an issue? And also how does 
that relate with the International Maritime Organization? Put 
pressure on, you know, a bad actor if there is a spill.
    Mr. Herbst. Yeah. I am not aware of any direct 
communication with the Spanish Government as far as oil spill 
response. The Coast Guard maybe, but not aware of anything in 
that area.
    Again, Repsol is an operator on the United States Outer 
Continental Shelf, so we are aware of their oil spill 
capabilities within the Gulf of Mexico, which is similar to 
other major operators in the Gulf of Mexico.
    Mr. Gibbs. I just have one other question. Do you 
anticipate that this drilling in these zones that there will 
horizontal drilling, too, or is it just conventional type 
straight down drilling?
    Mr. Herbst. I believe what our staff has reviewed is more 
of a conventional drilling, not a horizontal drilling, on this 
first well at least.
    Mr. Gibbs. Up in my area, fracking is a big concern, big 
issue. Are these wells typically fracked?
    Mr. Herbst. I am not real familiar with the zone, but they 
will be perforating. It is somewhat different than the Gulf of 
Mexico. I believe it is carbonate formation.
    Mr. Gibbs. Thank you.
    Mr. Mica. Thank you. Let me yield to Mr. Diaz-Balart now.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Is this on? Mr. 
Chairman, let me first publicly thank Admiral Baumgartner, 
because he actually was very proactive and actually met with 
just about all the Members of the delegation, I know that. And 
he gave us briefings, and that is something I greatly 
appreciate, and I want to thank you for that.
    I want to thank all the members of the panel for being here 
as well. But I have a number of questions to Dr. Proni.
    Dr. Proni, I read your presentation, and I will tell you 
that it is probably one of the best presentations that I have 
read in a long time.
    Mr. Proni. Thank you.
    Mr. Diaz-Balart. And most thorough presentations. And I 
have a million questions, but I do not have time, so let me 
just throw some things out there for you real quickly.
    You mentioned that the response of the ecosystems, the 
different aspects, and I am quoting you, are unclear, yet 
without such information, it is impossible to best respond. You 
also mentioned that it is about 70,000 jobs. Just the coral 
system, I guess, might create about 70,000 jobs in South 
Florida alone.
    You talk about establishing partnerships, not only between 
the Federal Government, but also between local institutions 
that have experience, local knowledge data, expertise, et 
cetera. And has that taken place already as far as 
understanding a real effort to do that?
    Actually let me just let you respond to that, and I will 
throw some other questions out there.
    Mr. Proni. We have been having discussions among the 
scientific institutions in South Florida, which have included 
NOVA University, University Miami, and Florida International, 
and the three regional Federal laboratories that are located 
down here, AOML, the National Hurricane Center, and Southeast 
Fisheries Centers.
    For the last 2\1/2\ years, some of my colleagues and I have 
been visiting Washington talking to the agencies, trying to 
suggest to them the best time to start doing things is way in 
advance of an actual oil spill occurring. The responses we have 
been getting have been very sympathetic, but everyone seems to 
say it is somebody else bailiwick. And then when you look at it 
in detail, it is not clear whose responsibility it is other 
than the response of the Coast Guard. The rest is vaguer.
    So, yes, we are preparing for it. We have assembled the 
capability that is required, and we stand ready to proceed.
    Mr. Diaz-Balart. Thank you, Doctor. I was also surprised to 
learn what you report, only about 50 percent of the Florida 
Reef Track coral resources have been mapped, which frankly was 
a big shock to me, knowing what resource that is, and something 
that is so utilized as to be part of our economy.
    But you mentioned that the U.S. Coast Guard response 
appears focused on surface modernization with Cuban oil and the 
use of dispersants. And you mentioned how with Deepwater 
Horizon millions of gallons of dispersants were also used in 
deep water.
    And you mentioned how, I guess there are a lot of questions 
as to what the impact of those dispersants could be, even, I 
guess, the makeup of the oil dispersants on ecosystems.
    Do you care to comment on that a little bit as to, again, 
that is the question I had concerning the Deepwater Horizon 
issue, and I never really got an answer. We do not have those 
answers, would that be fair to say, as to what the effects 
could be?
    Mr. Proni. Well, there are potential concerns with the 
notion of dispersants added to oil. The EPA colleagues are 
concerned about it, but also some colleagues that I have 
outside the EPA are concerned about whether--basically that you 
would have to evaluate environmental effects not only of the 
oil, but of the dispersants plus oil. You have to do both of 
those things.
    Mr. Diaz-Balart. Kind of changing the subject now also to 
the Coast Guard. You know, we are dealing with a regime that 
reportedly has plans or has had plans to attack at a certain 
point their facilities if, in fact, they felt threatened. Has 
the administration has the Department of Defense looking at 
worst case scenario, the possibility that the regime is, you 
know, on the border of collapse or whatever for whatever 
reason, or just because it either tried to blackmail the United 
States like they have done with different administrations with 
migrant issue, number one, and number two is, if they did a 
Saddam Hussein type oil field attack for whatever reason. Are 
you contemplating both those scenarios?
    Admiral Baumgartner. Well, sir, probably the easiest thing 
to say is that with Cuba so close, we contemplate many, many 
scenarios. We have thought about different security 
implications and so forth.
    One thing that we do know is that the primary shoreline 
that will be impacted and devastated by a spill in most of 
these sites, particularly where the first site is located, is 
going to be the Cuban coast. And there could be catastrophic 
impacts to much of their northern coast where their tourism 
industry, their budding tourism industry is trying to take 
root.
    So, there are definitely a lot of self-interest issues 
there for the Cubans if they going to deliberately release oil 
from these sites. They would be significantly impacted.
    Mr. Diaz-Balart. Thank you. I see my time has run out. Mr. 
Chairman, thank you. I will talk to you when we get back to 
Washington about the possibility of seeing if we can get some 
movement on Dr. Proni's about all the local and other resources 
that are available.
    Mr. Mica. I would be glad to work with you, and thank you. 
Let me recognize Mr. Rivera.
    Mr. Rivera. Thank you, Mr. Chairman. I will start my 
questions for Mr. Herbst, if you will. I was quite struck by 
your testimony and your response to the questions of some of my 
colleagues regarding what you stated was an informal review and 
a cursory review of the oil rig Scarabeo 9, and where you 
stated you did find some issues. And I thought those issues 
were quite extraordinary.
    You said there was cases of unsafe welding, incomplete 
wiring, and so forth that you were assured would be corrected. 
How will we know?
    Mr. Herbst. Well, unfortunately, in this situation where we 
do not have a followup visit prior to operations commencing, we 
will only have the word from Repsol since we cannot go out 
there and verify ourselves.
    Mr. Rivera. Well, that is pretty extraordinary testimony, 
the fact that we are going to have imminently an oil rig 
drilling off the coast of Florida that you yourself have said, 
based on your inspection, would not have been certified for 
U.S. waters. Is that correct?
    Mr. Herbst. Without a followup inspection, we would not 
allow it to drill.
    Mr. Rivera. Well, we have a problem then. We have got a 
major problem. If there is a rig 80 miles off the coast of 
Florida that our own Government has said would not be certified 
for drilling in U.S. waters, then I need to ask you, what can 
we possibly do? What else can we possibly do? And let us forget 
about the Castro dictatorship for right now. Let us focus on 
Repsol.
    I want to know what we can do to make sure that if 
something does happen, how we inflict maximum pain on Repsol, 
how we bleed Repsol, if you will, to whatever extent possible 
if something does happen on a rig that we ourselves have said 
would not be certified for U.S. operation?
    Mr. Herbst. Again, I should emphasize that we cannot go 
verify physically ourselves now.
    Mr. Rivera. I understand. What can we do? How can we 
inflict maximum pain on Repsol if something does happen?
    Mr. Herbst. Again, let me state that we are in continual 
negotiations--not negotiations, but discussions with Repsol on 
the status of what we have found there. I do not have that 
update for you today.
    Now, as far as what we can do for Repsol, who we deal with 
in the U.S. as far as Gulf of Mexico OCS operations, is a 
subsidiary of Repsol that is incorporated in the United States.
    Mr. Rivera. Well, in other in other cases, are there 
sanctions in other cases, whether it be denial of mineral 
rights or minerals easements, are there other cases, examples, 
of inflicting punishment on companies that may inflict damages 
on our natural resource interest?
    Mr. Herbst. What we do is we continually review performance 
of various operators. That performance, a poor performance, can 
lead to various steps, first being probation, second being 
disqualification.
    Mr. Rivera. Disqualification of the current exploration.
    Mr. Herbst. It can be of their current operations, and it 
can also prohibit them from acquiring any more leases in the 
U.S. OCS. And the Department also has Department procedures as 
well.
    Mr. Rivera. Department procedures. And all of those 
procedures, all of those denials would apply to Repsol?
    Mr. Herbst. Generally they apply to performance on the 
Federal OCS, or the Outer Continental Shelf.
    Mr. Rivera. So, they would not apply to Repsol in a case 
where, for example, where you have said there is unsafe 
welding, incomplete wiring. If there is something that happens, 
those prohibitions, those punishments would not apply to 
Repsol?
    Mr. Herbst. I cannot confirm at this point for operations 
that occur outside the OCS.
    Mr. Rivera. Well, we need to confirm that. We need to 
confirm that. We need to confirm that pronto, because if you 
look at that map that I pointed to earlier, and you look at 
that Gulf loop current, if something happens, that oil is 
coming right here to these beaches that you see right here. And 
even if there is not a spill, even if there is a blackout, an 
electrical failure because of the wiring, the incomplete wiring 
you talked about, even if something happens with the unsafe 
welding and there is a report about that, that map you see 
there is going to be on CNN, and MSNBC, and Fox News. And those 
folks on the beach that you see here that out there, they are 
not going to be out there because they are going to be worried 
about some sort of unsafe welding or incomplete wiring going on 
off the coast of Florida and a potential spill. They will not 
be out there. They will be on other beaches somewhere else.
    So, we need to figure out what we can do to inflict maximum 
pain, maximum punishment, to bleed Repsol of whatever resources 
they may have if there is a potential for a spill that will 
affect the U.S. coast. So, I hope you will look into that and 
verify that for us.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Mica. Thank you. Let me yield now to Mr. West.
    Mr. West. Thank you, Mr. Chairman. And, you know, Admiral 
Baumgartner, it seems pretty funny that a year ago we were up 
at the Lakewood Inlet Coast Guard station with Captain Graham 
and Captain Scraper. We were talking about this exact same 
issue just a year ago, and here we are right now. So, I think 
that is one of the failures we have to look at is that I do not 
think anyone was taking you very seriously. And it is sad that 
we have gotten to this point.
    With that being said, I know that you had a table top 
exercise that you conducted. What do you think are the two to 
three maybe critical lessons learned that you got from that 
table top exercise, because as Dr. Proni brought out, and, you 
know, having a military background, I do not like ad hoc 
formulations. So, I want to make sure that as best we possibly 
can we are ready to get going from the start.
    Admiral Baumgartner. Yes, sir. Some of the critical lessons 
learned from that one is although we think we will get, we 
believe we will get prompt notification or detection of a 
spill, but the ability to coordinate response efforts once 
there is oil in the water is important. And that was one of the 
things highlighted in that particular exercise.
    Repsol, the Cuban Government, will be responsible for their 
efforts in the Cuban EEZ. We have authority to go in there if 
it is cooperative and coordinated with them. So, having a 
mechanism to go ahead and do that so we can attack oil there 
before it gets to us is important. That is probably the biggest 
thing that was highlighted in that particular exercise.
    I think one of the other things there is the continued 
importance of ensuring that local governments, including local 
elected officials, are aware of the plans, not just their 
emergency managers, but they are all aware of that.
    So, after that exercise, I personally had a phone 
conversation with all the directors of emergency management, 
and I have engaged myself with some of the critical elected 
local officials, including Mayor Gimenez here in Miami-Dade and 
other places. Those are some of the most important things.
    Understanding the cascading of resources that needs to 
happen to get spill equipment down into the area is critically 
important as well.
    Mr. West. Do you have and identified an organizational 
structure, chain of command, you know, because with a manning 
document that we could quickly get filled?
    Admiral Baumgartner. Yes, sir. Yes, sir. And there are a 
couple of key things here.
    We have left in place the normal structure for protecting 
the actual shoreline areas, so we have incident command posts 
that we would set up at my sectors in Key West, Miami, and 
actually up in Jacksonville. They have good relations with the 
local officials, NGOs, and everything in that area. That would 
be basically the nearshore, the beach line defense, the inlet 
defense.
    We have a new command that we established that was the 
focus of this exercise, which is an offshore response command. 
We do have a manning chart. Key people are pre-identified so we 
know exactly how to go through that. We have checklists that 
look at what we need to do in the first 12 hours, the first 24 
hours, then 24 to 48 hours, so we can go through a checklist.
    Our command centers have pre-scripted quick response sheets 
so the moment a command report comes in, actually even if it 
comes in to our national command center in Washington, they 
know the exact sheet of information and what to start going so 
that we can respond immediately. So, those are identified, and 
that is the kind of stuff that, well, you would expect, and 
that is what we are going to do.
    Mr. West. Last question. When we talk about being prepared 
and having a pre-position of equipment, emergency response 
equipment, have we identified the type of equipment that we 
would need, and do we have the facilities here or capabilities 
to be able to pre-position some of that equipment so, as you 
say, we are not dialing out and trying to get these things here 
while this incident has occurred? So, I will ask that to the 
broader panel.
    What type of things do you think we should have pre-
positioned here, and do we have the facilities by which we can 
have some of this equipment pre-positioned so we are not having 
to jump start?
    Admiral Baumgartner. OK, sir. Some of the important things 
are, of course, vessels, vessels that can go out and do either 
in-situ burning if you need that, or offshore skimming and 
nearshore skimming. So, those have been identified.
    Some of the assets are there, particularly, say, skimmers 
that can work close into shore and the inshore environment. We 
have 107 different oil skimmers in the State of Florida 
already.
    The biggest resource that we probably do not have that we 
would have to cascade and move in are offshore skimmers, so 
large vessels that can go, you know, a dozen miles or 100 miles 
away from Miami and conduct operations. Fortunately, we have 
one of the largest and most capable offshore oil skimmers that 
is permanently based here in this part of Miami, and that 
belongs to one of the private spill response organizations.
    The ability to apply to dispersants, that is something that 
we have identified. Boom is another critical resource, 
especially the right type of boom and how we would use that. We 
have over 300,000 feet of boom in the State of Florida already.
    In any particular response, though, you are going to look 
to cascade and move in resources from all over the country, and 
we have a pretty good organization that has identified these, 
inventoried them, and is ready to move those through. We have 
talked to oil spill response organizations throughout the 
eastern part of the country. We have talked to oil spill--I am 
sorry, oil industry support vessels, OSV owners, over in the 
Gulf of Mexico where they have a significant amount of 
capability so that they are ready to start moving perhaps as 
many as 80 offshore supply vessels in our direction within 48 
to 60 hours. So we are looking at all of those things.
    Mr. West. Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Well, I thank all of the Members for 
participating today, especially those from out of town for 
coming, being with us, of course serving on the committee, and 
the South Florida Members. I want to thank all of the panelists 
and witnesses who have provided us with some preliminary 
information.
    The record is being left open for several weeks now, and we 
will possibly be submitting additional questions to you. I want 
to recognize Dave Jansen, who is with Ranking Member Rahall. He 
has joined us today, and if either side of the aisle wants to 
submit additional questions, they will be made part of the 
official record of this proceeding.
    So, this hearing has probably raised more questions than it 
has answered, but it is a preliminary review of the 
consequences of offshore drilling in Cuba and the Bahamas, and 
also trying to meet our responsibility in oversight of the 
United States Coast Guard, which is responsible as our primary 
agency for response in the event of a spill. Plus our committee 
oversees the Oil Spill Liability Trust Fund.
    So, we will probably continue these proceedings back in 
Washington, and we will look additionally at what challenges we 
face and where the committee goes from here.
    Thank Mr. Rivera for his legislation, and we will try to 
get that reviewed and see, again, what other legislative and 
administrative responses are necessary.
    That being said, there being no further business before 
this Subcommittee on United States Coast Guard or the Committee 
on Transportation and Infrastructure, this meeting is 
adjourned. Thank you.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]

</pre></body></html>
